DOCKET NO.
UNITED STATES SUPREME COURT
2020 OCTOBER TERM

CYNTHIA GILMORE
PETITIONER
v.
UNITED STATES OF AMERICA,
RESPONDENT
ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS FOR THE FOURTH CIRCUIT

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Pursuant to 18 U.S.C. ยง3006A(d)(l) and Rule 46 of this Court, petitioner
Cynthia Gilmore asks leave to file the attached Petition for Writ of Certiorari to the
United States Court of Appeals for the Fourth Circuit without prepayment of fees
or costs and to proceed in forma pauperis. Petitioner was represented by counsel
appointed pursuant to 18 U.S.C. ยง3006(a) in the direct appeal.
This the 26th day of July, 2020.
/s/ Aaron E. Michel
Aaron E. Michel, Attorney for Petitioner
3736 Surry Ridge Court
Charlotte, NC 28210-6921
704-451-8351
mail@aaronmichel.com

l

